APPENDIX 1

Case 3:18-cr-00162-HTW-FKB Document 22 Filed 04/15/19 Page 1 of 7

Case 3:18-cr-00162-HTW-FKB Document 22 Filed 04/15/19 Page 2 of 7

Case 3:18-cr-00162-HTW-FKB Document 22 Filed 04/15/19 Page 3 of 7

Case 3:18-cr-00162-HTW-FKB Document 22 Filed 04/15/19 Page 4 of 7

Case 3:18-cr-00162-HTW-FKB Document 22 Filed 04/15/19 Page 5 of 7

Case 3:18-cr-00162-HTW-FKB Document 22 Filed 04/15/19 Page 6 of 7

Case 3:18-cr-00162-HTW-FKB Document 22 Filed 04/15/19 Page 7 of 7

APPENDIX 2

Case: 19-60243

Document: 00515404938

Page: 1

Date Filed: 05/05/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-60243
Summary Calendar

FILED
May 5, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
CHRISTOPHER YOUNGER,
Defendant-Appellant
Appeal from the United States District Court
for the Southern District of Mississippi
USDC No. 3:18-CR-162-1
Before JONES, CLEMENT, and OLDHAM, Circuit Judges.
PER CURIAM: *
Christopher Younger appeals his above-guidelines sentence of 120
months of imprisonment for possession of a firearm by a convicted felon, in
violation of 18 U.S.C. § 922(g)(1).

Younger argues that his sentence is

substantively unreasonable because the district court erred in balancing the
statutory sentencing factors of 18 U.S.C. § 3553(a).

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

Case: 19-60243

Document: 00515404938

Page: 2

Date Filed: 05/05/2020

No. 19-60243
We review a preserved challenge to the substantive reasonableness of a
sentence under an abuse of discretion standard. See Gall v. United States,
552 U.S. 38, 51 (2007).

Review for substantive reasonableness is highly

deferential. See United States v. Pillault, 783 F.3d 282, 288 (5th Cir. 2015).
Younger has not shown that the district court gave improper weight to
any factor or committed a clear error of judgment in balancing the pertinent
sentencing factors. See United States v. Diehl, 775 F.3d 714, 724 (5th Cir.
2015). A district court need not engage in a checklist recitation of the § 3553(a)
factors and implicit consideration of those factors generally is sufficient. See
United States v. Kippers, 685 F.3d 491, 498 (5th Cir. 2012). Here, the district
court conducted a lengthy sentencing proceeding and heard much testimony
from Younger and his father, but it ultimately focused on Younger’s extensive
criminal history and his history of recidivism. A defendant’s criminal history
is a factor a sentencing court may consider in imposing a non-guideline
sentence. See United States v. Smith, 440 F.3d 704, 709 (5th Cir. 2006).
Disagreement with the district court’s balancing of the § 3553(a) factors “is not
a sufficient ground for reversal.” United States v. Malone, 828 F.3d 331, 342
(5th Cir. 2016). In light of this deferential standard of review, we conclude
that Younger has not shown that the district court abused its discretion.
AFFIRMED.

2

Case: 19-60243

Document: 00515404950

Page: 1

Date Filed: 05/05/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
_______________________

United States Court of Appeals
Fifth Circuit

No. 19-60243
Summary Calendar
_______________________

FILED
May 5, 2020
Lyle W. Cayce
Clerk

D.C. Docket No. 3:18-CR-162-1
UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
CHRISTOPHER YOUNGER,
Defendant - Appellant
Appeal from the United States District Court for the
Southern District of Mississippi
Before JONES, CLEMENT, and OLDHAM, Circuit Judges.
JUDGMENT
This cause was considered on the record on appeal and the briefs on file.
It is ordered and adjudged that the judgment of the District Court is
affirmed.

APPENDIX 3

United States v. Younger, 803 Fed.Appx. 789 (2020)

803 Fed.Appx. 789 (Mem)
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial decisions
issued on or after Jan. 1, 2007. See also
U.S.Ct. of App. 5th Cir. Rules 28.7 and 47.5.
United States Court of Appeals, Fifth Circuit.
UNITED STATES of America, Plaintiff-Appellee
v.
Christopher YOUNGER, Defendant-Appellant
No.
19
60243
|
Summary Calendar
|
FILED May 5, 2020
Appeal from the United States District Court for the Southern
District of Mississippi, USDC No. 3:18-CR-162-1
Attorneys and Law Firms
Samuel Lynn Murray, Assistant U.S. Attorney, Gregory
Layne Kennedy, Esq., Assistant U.S. Attorney, U.S.
Attorney's Office, Southern District of Mississippi, Jackson,
MS, for Plaintiff-Appellee
Abby Webber Brumley, Esq., Assistant Federal Public
Defender, Thomas Creagher Turner, Jr., Esq., Federal Public
Defender's Office, Southern District of Mississippi, Jackson,
MS, for Defendant-Appellant

published and is not precedent except under the
limited circumstances set forth in 5th Cir. R. 47.5.4.
Christopher Younger appeals his above-guidelines sentence
of 120 months of imprisonment for possession of a firearm
by a convicted felon, in violation of
18 U.S.C. §
922(g)(1). Younger argues that his sentence is substantively
unreasonable because the district court erred in balancing the
statutory sentencing factors of

18 U.S.C. § 3553(a).

We review a preserved challenge to the substantive
reasonableness of a sentence under an abuse of discretion
standard. See
Gall v. United States, 552 U.S. 38, 51, 128
S.Ct. 586, 169 L.Ed.2d 445 (2007). Review for substantive
reasonableness is highly deferential. See United States v.
Pillault, 783 F.3d 282, 288 (5th Cir. 2015).
Younger has not shown that the district court gave improper
weight to any factor or committed a clear error of judgment
in balancing the pertinent sentencing factors. See United
States v. Diehl, 775 F.3d 714, 724 (5th Cir. 2015). A district
court need not engage in a checklist recitation of the
§
3553(a) factors and implicit consideration of those factors
generally is sufficient. See United States v. Kippers, 685
F.3d 491, 498 (5th Cir. 2012). Here, the district court *790
conducted a lengthy sentencing proceeding and heard much
testimony from Younger and his father, but it ultimately
focused on Younger’s extensive criminal history and his
history of recidivism. A defendant’s criminal history is a
factor a sentencing court may consider in imposing a nonguideline sentence. See
United States v. Smith, 440 F.3d
704, 709 (5th Cir. 2006). Disagreement with the district
court’s balancing of the

§ 3553(a) factors “is not a

Opinion

sufficient ground for reversal.”
United States v. Malone,
828 F.3d 331, 342 (5th Cir. 2016). In light of this deferential
standard of review, we conclude that Younger has not shown
that the district court abused its discretion.

PER CURIAM: *

AFFIRMED.

Before JONES, CLEMENT, and OLDHAM, Circuit Judges.

*

Pursuant to 5th Cir. R. 47.5, the court has
determined that this opinion should not be

All Citations
803 Fed.Appx. 789 (Mem)

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

